U.S. Department of                                        The Inspector General             Office of Inspector General
Transportation                                                                              Washington, DC 20590
Office of the Secretary
of Transportation

July 16, 2010



The Honorable George LeMieux
United States Senate
Washington, DC 20510

Dear Senator LeMieux:

Thank you for your September 2009 letter requesting that we review a constituent’s
allegations regarding the Federal Aviation Administration’s (FAA) oversight of the
Venice Municipal Airport in Florida. 1 The constituent’s allegations focused on
FAA’s Orlando Airport District Office’s (ADO) compliance with Agency policies in
making decisions on airport operations and raised concern about Venice airport
revenue use.

To assess the constituent’s allegations, we interviewed officials from the Orlando
ADO, the City of Venice, and the Venice Municipal Airport. We also interviewed the
constituent, airport tenants, and leaseholders of selected airport property. In addition,
we analyzed FAA policies, procedures, and regulations, as well as documents from
the Orlando ADO, the City of Venice, and the Venice Municipal Airport.

In summary, we did not substantiate the constituent’s allegations that the Orlando
ADO did not comply with FAA policies. However, we found sufficient support to
initiate a more detailed review of airport revenue use. 2 The following summarizes our
conclusions in response to each of the constituent’s six allegations.

    • FAA appropriately denied a City of Venice request to downgrade the
      airport’s operational status. The constituent alleged that FAA improperly
      denied a City of Venice request to downgrade the airport’s operating status. If
      FAA had granted this request, it would have restricted most jet aircraft from using
      the Venice airport. However, we found that FAA policy requires airport status to

1
    This request had originally been submitted to our office by former Senator Mel Martinez in August 2009.
2
    OIG Audit Announcement on FAA Oversight of Venice Municipal Airport Revenues, June 2, 2010. Our audit objective
    is to determine whether FAA’s oversight ensures that the City of Venice is using airport revenue only for appropriate
    purposes and that the airport is as self-sustaining as possible. The announcement can be accessed on our website:
    www.oig.dot.gov.


CC-2009-094
                                                                                     2


  be determined by the type of aircraft using an airport. For example, the Venice
  airport has provided access to business class jets for decades, and the runways
  were built to accommodate these aircraft. Moreover, in 2006, one runway was
  reconstructed using Airport Improvement Program funds to allow aircraft of this
  type and size to continue operating at Venice. Therefore, FAA determined the
  airport’s operating status was correctly classified.

 • FAA appropriately denied a proposed flight pattern change. The constituent
   alleged that FAA improperly denied a proposed flight pattern change from left-
   hand to right-hand turns that, he stated, was intended to reduce airport noise
   impacts. However, we found that FAA policy requires proposed changes to be
   considered with safety as the highest priority. To determine if the proposed
   change was safe, FAA conducted an aeronautical study, which was coordinated
   with FAA’s Air Traffic Organization and Office of Flight Standards. According
   to the study, a right-hand flight pattern could compromise safety by creating
   confusion among pilots who normally follow FAA’s standard left-hand flight
   pattern for general aviation airports, like Venice. Further, FAA policy discourages
   non-standard flight patterns at airports like Venice that do not have an air traffic
   control tower.

 • FAA properly approved informal “pen-and-ink” revisions to Venice’s
   Airport Layout Plan (ALP). The constituent alleged that FAA improperly
   approved revisions to Venice’s ALP, which were hand-written on the original
   document. The revisions were made to update the ALP, identifying a site where
   an airport lease-holder demolished two existing aircraft hangars so new hangars
   could be built. We found FAA’s Southern Region ALP guidance includes a
   process for making ALP revisions, which specifically allows for hand-written
   changes.

 • FAA appropriately categorized a runway reconstruction project as a
   replacement in kind and properly excluded an environmental assessment.
   The constituent alleged that FAA improperly categorized the 2006 runway
   reconstruction as “replacement in kind” instead of an upgrade to support business
   jet aircraft. We found that FAA properly categorized the project as replacement in
   kind because it did not change the runway’s classification or the type of aircraft
   that could use the runway. In particular, business jets and smaller aircraft had
   operated from the runway both before and after the reconstruction. The
   constituent also asserted that FAA failed to conduct an environmental assessment
   for this reconstruction project. In accordance with FAA policy, the Agency was
   not required to conduct an environmental assessment for this work. Absent
   extraordinary circumstances, FAA has determined that projects to rebuild,
   resurface, or strengthen existing runways are categorically excluded from



CC-2009-094
                                                                                                                   3


      environmental assessments.                We found no evidence that would cause us to
      question this determination.

    • FAA appropriately accepted the airport’s 2009 flight operations count. The
      constituent alleged that FAA should not have accepted the airport’s operations
      count, which he believed overstated flight operations (i.e., take-offs and landings).
      He also believed that FAA was using the higher count to support the airport’s
      current operational status. We found, however, that FAA policy does not consider
      an airport’s operations count as the sole criterion for determining an airport’s
      classification. The type of operations it handles is also a factor. Venice airport
      has been used for jet operations for more than 40 years and has multiple tenants
      providing jet aircraft services and storage. According to FAA, these tenants
      cannot be deprived of airport access or business on the basis of what may be a
      temporary drop in operations counts—especially since operations counts were
      down nationwide in 2009.

    • Sufficient support exists for audit of FAA oversight of Venice airport revenue
      use and whether the airport is as self-sustaining as possible. The constituent
      alleged that FAA has not taken effective action to stop the City of Venice from
      diverting airport revenue. Airports such as Venice that receive Federal assistance
      are required by law to (1) use airport-generated revenues to cover their capital and
      operating costs and (2) become as self-sustaining as possible by charging fair
      market value (FMV) when selling or leasing airport property. 3 Venice airport
      generates revenue from a variety of sources, including rental payments from
      restaurants and an apartment complex located on airport property. However, in
      2009, FAA identified a number of leaseholders who appeared to be paying rent
      below FMV, thereby depriving the airport of revenue. We reported similar results
      in 1993, after determining that the City of Venice had failed to recover
      $2.4 million of airport revenue over a 4-year period. 4 In 1999, the Government
      Accountability Office estimated that the City of Venice had not recovered
      approximately $25 million in revenue from leases below FMV. 5 This points to the
      need for a more detailed audit of airport revenue use.

Based on our review of the constituent’s allegations, we are not recommending any
actions to FAA at this time. However, on June 2, 2010, we announced an audit of
FAA’s oversight of Venice Municipal Airport revenues and will determine if
additional actions are needed. We will apprise you of our findings once we have
completed our review.

3
    The Airport and Airway Improvement Act of 1982, as amended and codified in Title 49 United States Code Section
    47107(b).
4
    OIG Report Number R4-FA-3-724, “Audit of Airport Revenue Accountability: City of Venice, Florida,” July 22, 1993.
5
    GAO Report Number RCED-99-109, “General Aviation Airports: Unauthorized Land Use Highlights Need for Improved
    Oversight and Enforcement,” May 7, 1999.




CC-2009-094
                                                                             4



If I can answer any questions or be of further assistance, please contact me at
(202) 366-1959 or Darren L. Murphy, Program Director, at (206) 220-6503.

Sincerely,



Calvin L. Scovel III
Inspector General

cc: FAA Associate Administrator for Airports




CC-2009-094
